          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Attestation Report




        America’s Clean Water Foundation
        Incurred Costs for EPA Assistance
        Agreements X82835301, X783142301,
        and X82672301

        Report No. 2007-4-00045

        February 20, 2007
Report Contributors:	            Keith Reichard
                                 Bill Spinazzola
                                 Lela Wong
                                 Clem Cantil




Abbreviations

CFR          Code of Federal Regulations
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
OMB          Office of Management and Budget
FAR          Federal Acquisition Regulations
                        U.S. Environmental Protection Agency                                               2007-4-00045

                                                                                                       February 20, 2007

                        Office of Inspector General


                        At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review             America’s Clean Water Foundation Incurred Costs
                                   for EPA Assistance Agreements X82835301,
We conducted this
examination to determine           X783142301, and X82672301
whether the total costs
incurred for three U.S.             What We Found
Environmental Protection
Agency (EPA) assistance            The Foundation did not comply with the financial and program management
agreements were fairly             standards and the procurement standards promulgated in Title 40 Code of Federal
presented, in all material         Regulations (CFR), Part 30. Specifically, the Foundation (1) could not provide
respects, and the incurred         support for any of its general journal entries; (2) included duplicate transactions in
costs were allowable in            its accounting system; (3) recorded labor charged to EPA grants incorrectly;
accordance with the terms and      (4) could not support the recorded indirect costs; (5) claimed unallowable
conditions of the agreements       preaward costs; (6) recorded EPA cash draws inaccurately; (7) did not submit
and applicable regulations.
                                   required indirect cost proposals to EPA; (8) did not complete the required single
                                   audits for fiscal years ended June 30, 2003, June 30, 2004, and June 30, 2005; and
Background
                                   (9) did not submit a Federal Cash Transactions Report when required.
EPA awarded three assistance
agreements to the America’s        The Foundation’s procurement practices and procedures did not comply with the
Clean Water Foundation             grant regulations. The Foundation awarded sole source contracts without
(Foundation) to perform            performing the cost/price analysis required by Title 40 CFR 30.45. It also
environmental risk                 awarded a contract to a member of its Board of Directors, contrary to the conflict
assessments at agricultural        of interest provisions at Title 40 CFR 30.42, and reimbursed a contractor for
facilities and to assist States,   billings above contractual ceilings. Because the Foundation did not adequately
tribes, and territories in         document its costs and did not comply with the EPA regulations, we questioned
complying with the Clean           the Federal share claimed of $25,372,590.
Water Act.
                                    What We Recommend

                                   We recommend that the Director for the Grants Administration Division:
                                   (1) disallow the Federal share claimed of $25,372,590, and recover payments
                                   made of $25,173,266, unless the Foundation reconstructs its accountings records
                                   to meet the financial management standards required by Title 40 CFR 30.21
                                   through 30.28; (2) rescind provisional indirect rates for fiscal years ended June 30,
For further information,           2005, and June 30, 2006; (3) require the Foundation to obtain single audits for
contact our Office of
Congressional and Public           fiscal years ended June 30, 2003, June 30, 2004, and June 30, 2005; (4) require the
Liaison at (202) 566-2391.         Foundation to prepare and submit overdue Standard Form 272 Federal Cash
                                   Transactions Reports; (5) disallow contract costs procured, claimed, and
To view the full report,           administered in violation of the requirements in Title 40 CFR Part 30; (6) disallow
click on the following link:
www.epa.gov/oig/reports/2007/
                                   contract costs that were not authorized under the contract terms; (7) stop work on
20070220-2007-4-00045.pdf          all active grants; and (8) not award any new grants until the Foundation meets
                                   minimum financial management requirements and repays all disallowed costs.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL




                                        February 20, 2007

MEMORANDUM

SUBJECT:       America’s Clean Water Foundation Incurred Costs for
               EPA Assistance Agreements X82835301, X783142301, and X82672301
               Report No. 2007-4-00045

TO:            Richard Kuhlman
               Director, Grants Administration Division


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

On September 29, 2006, we issued a draft report to the America’s Clean Water Foundation’s
(Foundation’s) attorney for comments. On December 7, 2006, we received a response from the
Foundation’s attorney which also included comments from Validus Services, LLC, the
Foundation’s contractor. The Foundation and Validus either disagreed with or did not respond to
the report’s findings. We did not receive the response, as requested, in an acceptable electronic
format to include in the report. A copy is available on request. We have summarized the
Foundation’s pertinent comments after each finding in the report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $221,225.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the findings contained in this report before
any formal resolution can be completed with the Foundation. Your proposed decision is due on
June 20, 2007. To expedite the resolution process, please email an electronic version of your
proposed management decision to reichard.keith@epa.gov.
We have no objections to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig. We want to express our appreciation for
the cooperation and support from your staff during our review. If you have any questions about
this report, please contact Keith Reichard at (312) 886-3045.


                                                    Sincerely,




                                                    Bill A. Roderick
                                                    Acting Inspector General
                                          America’s Clean Water Foundation 

                                    Incurred Costs for EPA Assistance Agreements

                                        X82835301, X783142301, and X82672301 





                                       Table of Contents 


Background .......................................................................................................................        1 


Independent Auditor’s Report ............................................................................................                 4         


Results of Examination .......................................................................................................            6         


Recommendations...............................................................................................................           16     


Status of Recommendations and Potential Monetary Benefits.......................................                                         17     




Schedules
Schedule 1           Schedule of Claimed Outlays by Assistance Agreement,
                     Unallowable Costs, and Amounts Due EPA
                     American’s Clean Water Foundation..........................................................                         18

Schedule 2           Comparison of Claimed Outlays to Recorded Costs
                     Validus Services, LLC ..................................................................................            19

Schedule 3           Results of Examination for Claimed Outlays
                     Validus Services, LLC ..................................................................................            21



Appendices
A         Scope and Methodology..........................................................................................                30     


B         Distribution ...............................................................................................................   32     

                                                 Background

  The U.S. Environmental Protection Agency (EPA) awarded three assistance agreements1 (grants)
  to the America’s Clean Water Foundation (Foundation) totaling $25,886,111. The Foundation,
  which is located in Washington, DC, was formed in 1989, and is a Section 501(c) (3) not-for
  profit organization (specified in the Internal Revenue Code). The following table summarizes
  information about the authorized project periods and funds awarded under each of the three
  grants:

                                                                               Last
                      Award            EPA                 EPA               Payment
      Grant            Date           Share *            Payments              Date                 Project Period

X82835301           08/31/2000       $ 14,438,750          $ 14,438,750     10/22/2003         07/01/2000 – 06/30/2004

X783142301          09/26/2003          9,938,000             9,225,155     02/17/2006         06/30/2003 – 06/30/2006

X82672301           07/23/1998          1,509,361             1,509,361     06/10/2004         06/01/1998 – 05/31/2004

Total                                $ 25,886,111          $25,173,266
  Source: The source of the grant information was the OIG’s summary of the grants/amendments. The EPA
  payments and payment dates came from EPA’s Financial Data Warehouse.

  * EPA funded 100 percent of grants X82835301 and X783142301. EPA’s share of grant X82672301 was
  $1,509,361 and the Foundation’s share was $25,000.

  All three grants were awarded under Section 104 (b)(3) of the Clean Water Act. The scopes of
  work are:

  Grant X82835301: This grant was to conduct On-Farm Assessment and Environmental Review
  (OFAER) assessments at pork production facilities to identify actual or potential environmental
  risks, develop steps to mitigate those risks, and prevent them from becoming environmental
  problems. It also was intended to test the assessment process at beef, dairy, and poultry
  facilities.

  Grant X783142301: This grant was for the continuation of the OFAER program described under
  Grant X82835301 above. It included assessments at beef, dairy, and poultry facilities as well as
  pork production facilities.

  Grant X82672301: This grant was to enable the Foundation to continue liaison support by
  assisting States, Indian tribes, and territories in complying with the Clean Water Act, section
  303(d) and Total Maximum Daily Load program requirements. The grant was also intended to
  enable the Foundation to provide Water Quality Standards Circuit Rider support.



  1
      EPA’s assistance to the Foundation was either a grant or cooperative agreement. For reporting purposes, all
      assistance will be referred to as a grant.



                                                             1

While performing the single audit for the year ended June 30, 2004, RAFFA, the Foundation’s
accounting firm, discovered accounting irregularities and a potential embezzlement of funds.
The Foundation’s president and the managing partner of RAFFA met with EPA officials to
report these irregularities. As a result of this meeting, EPA, on July 18, 2005, changed the
Foundation’s method of grant payments from “Advance” to “Reimbursement.” EPA officials
stated they took this action because the circumstances described indicated a breakdown in
internal controls. They also stated that EPA would not process any new grant awards or
amendments to existing grants until the Foundation demonstrated it had complied with EPA’s
standards for financial management systems in Title 40 CFR 30.21(b).

In a November 8, 2005, letter, EPA informed the Foundation that payment for grant costs
incurred for contract ACWF-OFAER-01-05 awarded to Environmental Management Solutions,
LLC (now Validus Services, LLC) would not be approved because the Foundation did not
comply with EPA procurement requirements. In response, the Foundation provided information
on the OFAER contract procurement and requested a deviation from the regulations. EPA
deferred action on the Foundation’s request for deviation to allow the Foundation additional time
to provide the required cost review documentation. On July 11, 2006, EPA denied the
Foundation’s request for deviation because (1) the required documentation was not submitted
and (2) the OIG indicated in a memorandum report2 that costs incurred under the contract were
not reasonable or allowable. EPA requested that the $5.6 million it reimbursed the Foundation
under the contract be returned.

In a July 14, 2006, letter, the Foundation’s attorney notified EPA that the Foundation was
formally dissolved. The letter stated that all members of the Board of Directors had resigned, the
Foundation filed dissolution papers with the District of Columbia, and it no longer had any
employees or an office location. The stated reason for the dissolution was the lack of program
funding; the Foundation could no longer operate effectively or respond to Agency inquiries. The
letter indicated that Foundation records and files had been moved to a storage facility in
Standardsville, Virginia, that access to the records can be arranged, and that the Foundation
retained its right to initiate and maintain claims.

Single Audit Activity

Nonfederal entities that expend $300,000 ($500,000 for fiscal years ending after December 31,
2003) or more in a year in Federal awards are required by Title 40 CFR 30.26 to have a single
audit conducted in accordance with applicable requirements of the OMB Circular A-133. The
Foundation had single audits completed for the fiscal years ended June 30, 2000, June 30, 2001,
and June 30, 2002. Applicable findings follow.

Fiscal Year 2000 - During the year, the Foundation advanced $100,000 in Federal funds to
another not-for-profit organization. The advance was repaid in 90 days. However, the
Foundation did not follow requirements that Federal funds be used only in strict adherence with
terms of the grant agreement.


2
 Memorandum no. 2006-M-0001, dated June 15, 2006, issued to Richard Kuhlman, Director, Grants Administration
Division.


                                                     2

Fiscal Year 2001 - Several Federal Cash Transactions Reports were not properly supported.
There were discrepancies between cumulative grant expenditures and amounts in the general
ledger. Adjustments to the grants were made after the reports were submitted. However, the
Foundation did not retain support for amounts reported in the Federal Cash Transaction Reports
or the adjustments to the general ledger.

The Foundation used accrued expenditures as the basis for the EPA cash draws instead of cash
disbursements. As a result, an excess cash balance existed. In the case cited in the audit report,
the Foundation reported excess cash on hand at December 31, 2000, of $506,170. The funds
were not disbursed until February 21, 2001, a period of about 6 weeks. In addition, the funds
were not maintained in an interest-bearing account.

The Foundation did not submit its single audit report for fiscal year 2000 to the Federal Audit
Clearing House timely. The report was due no later than March 31, 2001. It had not been
submitted at the time of completion of fieldwork for the fiscal year 2001 audit (January 25,
2002).

Fiscal Year 2002 - The Foundation received cash advances in excess of its current cash needs.
As of June 30, 2002, the recipient had $60,650 unspent from a $100,000 advance on May 7. In
addition, the funds were not maintained in an interest bearing account.

Fiscal Years 2003 through 2005 - A single audit for fiscal year 2003 was completed but a
report was not issued because of accounting irregularities discovered during the fiscal year 2004
single audit. In March 2005, the Foundation hired RAFFA to provide audit services, which
included an audit of the fiscal year 2004 financial statements. However, RAFFA discontinued its
work after identifying accounting irregularities that might extend back to prior years. Effective
July 8, 2005, RAFFA took over daily accounting duties for the Foundation. The Foundation has
either not issued or completed the single audits for the years ended June 30, 2003, June 30, 2004,
and June 30, 2005.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Reported Outlays:              	Actual cash disbursements identified by the Foundation on
                                      the Financial Status Report (Standard Form 269A) or the
                                      Federal Cash Transaction Report (Standard Form 272).

       Questioned Costs:	             Costs that are (1) contrary to a provision of a law,
                                      regulation, agreement, or other documents governing the
                                      expenditures of funds; or (2) not supported by adequate
                                      documentation.




                                                 3

                        Independent Auditor’s Report

We have examined the total outlays and disbursements reported by the Foundation under the
EPA grants shown below:

                                                   Financial Status Report/
                                               Federal Cash Transactions Report
                                                                          Reported          Federal Share
                               Date                    Period             Outlays/           Of Outlays
         Grant               Submitted                 Ending          Disbursements          Reported

      X82835301              09/28/2004              06/30/2004             $14,438,750       $14,438,750*

      X783142301             09/22/2005              06/30/2005               9,424,479         9,424,479**

      X82672301              09/28/2004              05/31/2004               1,534,361          1,509,361*

         Total                                                              $25,397,590        $25,372,590

     Source: The sources of the reported outlays were the recipient’s Financial Status Reports/Federal Cash
     Transactions Report.

   * Outlays reported on the Final Financial Status Reports 

   ** Disbursements reported on the Federal Cash Transactions Report


The Foundation certified that the outlays and disbursements reported on the Financial Status
Reports, Standard Form 269A, and the Federal Cash Transactions Reports, Standard Form 272,
were correct and for the purposes set forth in the agreements. Preparing these reports was the
Foundation’s responsibility. Our responsibility is to determine the allowable costs incurred in
accordance with the terms and conditions of the grants and applicable EPA regulations.

We conducted our examination in accordance with the Government Auditing Standards issued by
the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We also followed the
guidelines and procedures established in the Office of Inspector General Project Management
Handbook, dated January 14, 2005. We examined, on a test basis, evidence supporting the
reported outlays/expenditures, and performed such other procedures as we considered necessary
in the circumstances (see Appendix A for details). We believe that our examination provides a
reasonable basis for our opinion.

We questioned the Federal share of $25,372,590 that the Foundation claimed because it did not
comply with the financial and program management standards and the procurement standards
promulgated in Title 40 Code of Federal Regulations (CFR), Subchapter B, Part 30.




                                                      4

In our opinion, because of the effects of the deficiencies discussed in the Results of Examination,
the reported Federal outlays and disbursements on the Financial Status Reports and Federal
Cash Transactions Report do not present fairly, in all material respects, the allowable costs
incurred in accordance with the terms and conditions of the grants and applicable EPA
regulations.



/s/ Keith Reichard
Keith Reichard
Office of Inspector General
U.S. Environmental Protection Agency
February 20, 2007




                                                 5

                             Results of Examination

Financial and Program Management Systems Did Not Comply with
Standards
The Foundation did not comply with the financial and program management standards
promulgated in Title 40 CFR, Subchapter B, Part 30. Because the Foundation did not meet its
fiduciary responsibilities under the regulations, outlays and expenditures reported on the
Financial Status Reports and Federal Cash Transactions Reports are not allowable.

When applying for grant assistance, the Foundation certified that it had the institutional,
managerial, and financial capability to ensure proper planning, management, and completion of
the project described in the grant application, and that it would comply with applicable
requirements of Federal laws, executive orders, regulations, and policies governing the grant.
EPA’s administrative grant regulations for nonprofit organizations are codified in Title 40 CFR,
Subchapter B, Part 30. Under the provisions of Title 40 CFR Part 30, the Foundation was
required to follow the financial and program management standards codified in Title 40 CFR
30.21 through 30.28. As part of our audit procedures, we asked the Foundation to (1) summarize
the outlays reported to EPA and (2) reconcile the reported outlays to the Foundation’s book and
records. In response, the Foundation provided EPA with schedules that presented costs by
assistance agreement by cost element by fiscal year. However, these schedules did not reconcile
to the outlays reported on the Financial Status Reports and disbursements on the Federal Cash
Transactions Report. The Foundation reported outlays to EPA that were greater than amounts it
recorded in its books and records by a total of $611,289. See Schedule 1 for details on reported
outlays and disbursements by grant and differences when compared to the Foundation’s books
and records.

On May 9, 2006, we discussed these differences with the Foundation’s President and requested
revisions to grant claims or supporting accounting records. We made similar requests on May
23, 2006, and May 30, 2006. The Foundation did not respond. Title 40 CFR 30.21(b)(1)
requires accurate, current, and complete disclosure of the financial results of federally funded
programs or projects. The Foundation did not comply with this requirement. Because the
Foundation did not adequately document its costs and did not comply with the grant regulations,
we questioned the Federal share of $25,372,590 claimed by the Foundation. However, in order
to provide EPA with pertinent information related to the Foundation’s incurred costs (presented
in Schedule 1) we conducted additional tests to determine if the costs were supported and
allowable in accordance with the terms and conditions of the grants and applicable EPA
regulations.

Our review disclosed that the Foundation:

•   Did not provide support for any of its general journal entries.
•   Included duplicate transactions in its accounting system.
•   Recorded labor charged to the EPA grants incorrectly.


                                                 6

•	  Could not support the recorded indirect costs.
•	  Claimed unallowable preaward costs.
•	  Recorded EPA cash draws inaccurately.
•	  Did not submit required indirect cost rate proposals to EPA.
•	  Did not complete the required single audits for the fiscal years ended June 30, 2003, June 30,
    2004, and June 30, 2005.
• 	 Did not submit a Federal Cash Transactions Report when required.

Title 40 CFR 30.62 provides that if a recipient materially fails to comply with the terms and
conditions of an award, whether stated in a Federal statute, regulation, assurance, application, or
notice of award, EPA may disallow all or part of the cost of the activity or action not in
compliance. Because the Foundation did not adequately document its costs and did not comply
with the grant regulations, we questioned the Federal share claimed of $25,372,590. Details of
our findings follow.

Unsupported General Journal Entries

       The Foundation did not provide the required documentation to support and sufficiently
       explain the general journal entries recorded for any of its three grants. Title 40 CFR
       30.21(b)(7) states that recipient’s financial management systems shall have accounting
       records supported by source documentation. The Foundation used general journal entries
       to (1) record accruals such as payroll costs, (2) reverse posting entries, (3) allocate
       indirect costs, (4) correct errors, (5) record revenue, and (6) post transactions that were
       not recorded in the general ledger by other means. However, the Foundation could not
       provide supporting documentation to explain and support any general journal entries.

       For the three grants under review, the Foundation recorded a net value of $2,703,076
       with general journal entries. Among other items, this amount included $59,857 in
       salaries and $1,391,614 in indirect costs. We requested the Foundation to provide
       support for all general journal entries on three occasions during our review. We have not
       received a response to these requests or any support for the entries. The Foundation has
       not complied with the requirement of Title 40 CFR 30.21(b)(7) that accounting records
       be supported by source documentation.

       Foundation’s Response

       The Foundation did not address this finding.

Duplicate Recorded Costs

       The Foundation recorded duplicate transactions in its accounting system totaling at least
       $63,388. During the fiscal year ended June 30, 2005, the Foundation used two different
       databases to record grant expenditures in its general ledger. One database covered the
       period July 1, 1999, to November 30, 2004, and the second covered the period July 1,
       2004, to June 30, 2005. There is an overlapping period from July 1, 2004, to November
       30, 2004. We reviewed transactions in both databases for the overlapping period and



                                                 7

      noted duplicated amounts of at least $48,008 in salaries and $15,380 in associated fringe
      benefits. Title 40 CFR 30.21 requires the Foundation to maintain a financial
      management system that is accurate, current and complete, and provides for the effective
      control over and accountability for all funds. Because recorded costs were duplicated,
      the Foundation’s financial management system was not accurate, and the incurred costs
      were incorrect and overstated.

      Foundation’s Response

      The Foundation did not address this finding.

Incorrect Labor Costs

      The Foundation’s recorded labor costs were inaccurate. The Foundation reported labor
      costs for the three grants totaling $1,413,973. We found differences between labor hours
      reported on employee timesheets and labor hours recorded in the Foundation’s
      accounting system. For example, we reviewed the April 2001 pay period for the
      Foundation’s Chief Operations Officer. The Foundation’s accounting system reported
      that 242 labor hours were used to distribute this employee’s gross pay to projects.
      However, labor activity reports only reported 178 hours. We discussed this issue with
      Foundation personnel on April 27, 2006. The Foundation's accountant agreed with the
      finding, said he had also found errors, and stated he would provide us with a spreadsheet
      that documents reconstructed labor dollars based on actual employee timesheets and
      payroll. We have not received the reconstruction. Title 40 CFR 30.21 requires the
      Foundation to maintain a financial management system that is accurate, current and
      complete, and provides for the effective control over and accountability for all funds.
      The Foundation did not comply with this requirement because its recorded labor is
      inaccurate.

      Foundation’s Response

      The Foundation did not address this finding.

Unsupported and Inaccurate Indirect Cost

      The Foundation’s indirect costs are unsupported and inaccurate. The Foundation
      reported a total of $1,439,947 in indirect costs. Of the total, $1,391,614 was recorded in
      the accounting system using general journal entries. As discussed above under
      Unsupported General Journal Entries, the Foundation did not provide any documentation
      to support its general journal entries. Without any documentation, we were unable to
      determine if the Foundation applied appropriate indirect cost rates or if the base to which
      the rates were applied was correct.

      Also, under Incorrect Labor Costs and Duplicated Recorded Costs discussed above, we
      reported that the Foundation’s recorded labor costs were incorrect, and that duplicate
      labor transactions were recorded in the accounting system. Labor and fringe benefits are



                                               8

     elements of an indirect cost pool and an indirect cost rate allocation base. Inaccuracies in
     these costs would render indirect cost rates and resulting indirect costs inaccurate.

     Title 40 CFR 30.21(b)(7) states that a recipient's financial management system shall
     provide for accounting records including cost accounting records that are supported by
     source documentation. In addition, Title 40 CFR 30.21 requires the Foundation to
     maintain an accurate, current, and complete financial management system. The
     Foundation did not comply with either of these requirements.

     Foundation’s Response

     The Foundation did not address this finding.

Unallowable Preaward Costs

     The Foundation reported $19,038 under grant X82835301 for costs incurred by The
     Grizzle Company. The costs were billed to the Foundation prior to award of the grant.
     However, the Foundation did not obtain the prior approval for preaward costs required by
     Title 40 CFR 30.25. Without prior approval, the costs are unallowable for
     reimbursement.

     Title 40 CFR 30.25(f) states that recipients are authorized without prior approval or
     waiver to incur pre-award costs 90 calendar days prior to award. Preaward costs incurred
     more than 90 calendar days prior to award require the prior approval of the EPA Award
     Official. The applicant must include all pre-award costs in its application.

     The Grizzle Company billed the $19,038 to the Foundation between September 1, 1999,
     and February 1, 2000. Grant X82835301 was awarded on August 31, 2000, 5 months
     later. The Grizzle Company billed the Foundation between 212 and 365 calendar days
     prior to award of grant X82835301. The costs, therefore, needed the prior approval of
     EPA and they should have been included in the grant application. A review of the grant
     files for grant X82835301 did not disclose any evidence of prior approval by EPA.
     Neither The Grizzle Company contract (by name) nor costs incurred of $19,038 were
     included in the grant application.

     Foundation’s Response

     The Foundation’s response indicated that the OIG referenced the wrong grant
     (X82835301) and the wrong period of performance. They stated that the work was
     authorized and performed under grant X82728401.

     OIG’s Comments

     The Foundation claimed the $19,038 under grant X82835301. However, the contract was
     authorized and performed under the previous grant, X82728401. The costs are, therefore,




                                              9

      not allowable for reimbursement under grant X82835301. The Foundation claimed the
      costs under an incorrect grant. The costs remain questioned.

Inaccurate Recording of EPA Cash Draws

      Contrary to Title 40 CFR 30.21, the Foundation could not always show the receipt of
      EPA cash draws in the Foundation’s accounting records. Title 40 CFR 30.21(b)(2) states
      that a recipient's financial management system should provide records that adequately
      identify the source and application of funds for federally sponsored activities. In
      addition, Title 40 CFR 30.21(b)(1) requires the Foundation to maintain a financial
      management system that is accurate, current, and complete. The Foundation has not
      complied with these requirements because it recorded EPA cash draws inaccurately and
      was unable to accurately identify the source of funds for the three EPA grants. The
      following table provides a comparison of actual EPA grant payments with the revenues
      recorded in the Foundation’s accounting system.

                                                     Foundation
                                    EPA Grant         Recorded
                    EPA Grants      Payments          Revenues         Difference
                   X82835301         $14,438,750         $17,661,062    ($3,222,312)
                   X82672301          $1,509,361          $1,296,216       $213,145
                   X783142301         $9,225,155          $6,184,483     $3,040,672

                   Source: The source for the EPA grant payments was EPA’s
                   Financial Data Warehouse. The Foundation’s recorded revenues
                   came from the Foundation’s accounting system.

      Foundation’s Response

      The Foundation did not address this finding.

Indirect Cost Rates Were Not Submitted

      In addition to the unsupported indirect costs discussed above, the Foundation has not
      submitted all of the indirect cost rate proposals required by OMB Circular A-122,
      Attachment A, Subparagraph E.2. The Circular requires a recipient to submit an initial
      indirect cost rate proposal no later than 3 months (or 90 days) after the effective date of
      an award. Organizations that have previously established indirect cost rates must submit
      a new indirect cost rate proposal within 6 months after the close of each fiscal year.

      The Foundation provided us with indirect cost rate negotiation agreements for fiscal years
      2005 and 2006. The rates were negotiated by the Department of Interior, National
      Business Center under agreement with EPA. In addition, the Foundation provided us
      with indirect cost rate proposals and transmittal letters for submission to EPA for fiscal
      years 1999 and 2004. We did not find evidence of preparation or submission of
      proposals for fiscal years 2000 through 2003. The Foundation has not demonstrated that
      it complied with the requirements of OMB Circular A-122 regarding submission of
      indirect cost rate proposals for fiscal years 2000 to 2003.


                                                   10

     Foundation’s Response

     The Foundation did not address this finding.

Single Audits Not Completed

     The Foundation has not completed required single audits for the fiscal years ended June
     30, 2003, June 30, 2004, or June 30, 2005. Title 40 CFR 30.26 states that nonprofit
     organizations are subject to the audit requirements of OMB Circular A-133. OMB
     Circular A-133, Subpart B requires a non-Federal entity that expends $300,000 ($500,000
     for fiscal years ending after December 31, 2003) or more in a year in Federal awards to
     have a single audit conducted for that year in accordance with the requirements of the
     Circular. The Circular also requires that the audit be completed and a reporting package
     be submitted no later than 9 months after the end of the audit period.

     The Foundation’s President stated that a single audit had been completed for fiscal year
     2003 but the discovery of accounting irregularities indicated issuance of the report may
     not have been appropriate. The report was, therefore, withheld. In addition, the
     accounting firm contracted to perform the single audit for fiscal year 2004 discontinued
     work after discovery of the irregularities. The Foundation stated it does not have plans
     for an audit of fiscal years 2004 and 2005 at this time.

     Foundation’s Response

     The Foundation did not address this finding.

Noncompliance with Federal Financial Reporting Requirements

     We noted that the Foundation’s Federal Cash Transactions Report for the 6-month
     period ended December 31, 2005 was overdue. Title 40 CFR 30.52(a)(2) states that EPA
     shall require each recipient to submit a Federal Cash Transactions Report and that it
     should use this report to monitor cash advanced and to obtain disbursement information
     for each agreement with the recipient. As of June 2005, EPA’s policy is to require a
     recipient to submit a Federal Cash Transactions Report within 15 working days following
     the semiannual periods ending June 30 and December 31. As of May 23, 2006, the
     Foundation had not submitted its Federal Cash Transactions Report for the semiannual
     period ended December 31, 2005. The Foundation did not comply with EPA reporting
     requirements.

     Foundation’s Response

     The Foundation did not address this finding.




                                             11

Procurement System Did Not Comply with Standards
The Foundation’s procurement system did not comply with EPA’s procurement standards.
When applying for grant assistance, the Foundation certified that it would comply with
applicable requirements of Federal laws, executive orders, regulations, and policies governing
each grant. The procurement standards are codified in Title 40 CFR 30.41 through 30.48. We
found that the Foundation:

• 	 Awarded contracts without performing the cost or price analysis required by Title 40 CFR
    30.45.
• 	 Awarded a contract to a member of its Board of Directors, contrary to the conflict of interest
    provisions in Title 40 CFR 30.42.
• 	 Continued to reimburse Validus for billings even though the billings exceeded ceilings
    specified in the contract.

Cost or Price Analysis not Performed

       The Foundation did not comply with EPA regulations when procuring contracts and
       obtaining prior approval for contract costs. The Foundation claimed outlays of
       $21,107,498 ($12,308,145 under grant X82835301 and $8,799,353 under grant
       X783142301) for contracts awarded to conduct on-farm assessments. The first contract
       was originally awarded in fiscal year 1999 to the National Pork Producer's Council
       (Council). Subsequent contracts were awarded to Environmental Management Solutions,
       LLC, a 100 percent owned subsidiary of the Council. Environmental Management
       Solutions, LLC later changed its name to Validus Services, LLC (collectively referred to
       as Validus). The contract was extended several times through fiscal year 2005.

       All of these contracts were awarded without competition and without a cost or price
       analysis. In correspondence with the Director, EPA’s Grants Administration Division on
       July 27, 2005 and September 21, 2005, the Foundation’s Executive Director said that it
       did not perform a cost or price analysis because there were no sources of comparable data
       for it to use. Title 40 CFR 30.45 states that some form of cost or price analysis is
       required in connection with every procurement action. Price analysis may be
       accomplished in various ways, such as comparison of price quotations submitted, market
       prices and similar indicia. A cost analysis is the review and evaluation of each element
       of cost to determine reasonableness, allocability, and allowability. Since the contracts
       were awarded without competition, a price analysis could not be performed because there
       were no prices available to compare. Accordingly, the Foundation’s only alternative was
       to conduct a cost analysis. However, the Foundation did not conduct a cost analysis on
       any of the awarded contracts, and thus was unable to demonstrate that the contract costs
       were reasonable, allowable, and allocable.

       In addition, Title 40 CFR 30.44(e)(2) requires recipients to make pre-award review (i.e.,
       costs analysis) and procurement documents available whenever a contract is awarded
       without competition and exceeds the small purchase limit of $100,000. The Foundation
       did not comply with either requirement. Without the required cost or price analysis, we


                                                12

      have no assurance that a reasonable and fair price was obtained for the contracted
      services.

      We performed an on-site review of the $21,107,498 that the Foundations claimed for
      Validus’ services, and found that claimed outlays exceeded recorded costs by $6,195,057
      ($3,466,808 for grant X82835301 and $2,728,249 for grant X783142301). This
      significant difference between claimed outlays and recorded costs further indicates that
      the Foundation did not obtain fair and reasonable contract prices. A comparison of
      claimed outlays to recorded costs by cost category is presented in Schedule 2 (page 19).

      We also noted that claimed outlays for Validus’ services included $4,278,615 in
      unallowable costs ($2,223,940 under grant X82835301 and $2,054,675 under grant
      X783142301). Additional details on unallowable costs are presented in Schedule 3 (page
      21).

      Foundation’s Response

      The Foundation did not specifically address this finding other than to say that previous
      grant dispute submissions (see the Foundation’s filing to Disputes Decision Official dated
      May 8, 2006) of the Foundation have argued that the Agency has used a number of
      techniques to recognize the value of such work, regardless of purported defects in the
      contract award, and that EPA must provide funding for Validus work.

      OIG’s Comments

      The Foundation did not demonstrate that it complied with the provisions of Title 40 CFR
      30.45. Accordingly, we did not revise our findings and recommendations.

Conflict of Interest

      Another contract was awarded to The Grizzle Company on April 5, 1999, on a
      noncompetitive basis. The contract was for a maximum amount of $50,000 and was due
      to expire on March 31, 2000. The Foundation did not comply with the conflict of interest
      requirements at Title 40 CFR 30.42 when awarding the contract.

      The chairman of The Grizzle Company, was also the Vice President of the Foundation’s
      Board of Directors. Title 40 CFR 30.42 states that no employee, officer, or agent shall
      participate in the selection, award, or administration of contracts supported by Federal
      funds if a real or apparent conflict of interest would be involved. Such a conflict would
      arise when the employee, officer, or agent has a financial or other interest in the firm
      selected for award. As chairman of The Grizzle Company, the chairman would have an
      interest in The Grizzle Company being selected for a contract award; and as Vice
      President of the Foundation’s Board of Directors, was potentially in a position to
      influence Foundation actions or decisions to make the contract award.




                                              13

        Foundation’s Response

        The Foundation indicated that Mr. Grizzle recused himself from all Board decisions and
        actions related to this contract, thus he was never in a position to influence the
        Foundation’s actions or decision to make the contract award.

        OIG’s Comments

        The Foundation did not provide any proof that Mr. Grizzle recused himself from any
        Board decisions or actions related to his contract. Even if Mr. Grizzle recused himself
        from any Board decisions related to his contract, he was potentially in a position to
        influence actions or decisions by other Foundation members. Recusing himself would
        not eliminate the influence his presence had on others.

Improper Contract Administration

        The Foundation continued to reimburse Validus for amounts billed even though the
        billings exceeded maximum amounts specified in the contracts or were for unbillable
        costs. The Foundation awarded four contracts to Validus in fiscal year 2002 through
        fiscal year 2005 to conduct on-farm assessments under the OFAER program. The
        contracts required various services, including program administration and refinement,
        program marketing or promotion, program training, database mining, and verification or
        oversight. Validus was to bill the Foundation for necessary and reasonable costs incurred
        up to the maximum aggregate amounts as specified in the contracts. Maximum billable
        amounts were specified by cost category, as well as for the contract as a whole. We
        found that Validus billed the Foundation for $412,5233 in excess of the categorical
        ceiling amounts under grant X82835301. The excess billings by cost category and by
        contract are summarized in Schedule 3, Note 5 (see page 28).

        In addition, the Foundation reimbursed Validus for $17,074 in program administration
        costs that were not billable by the terms and conditions of its contract. The billing
        occurred under contract ACWF-OFAER-02-99. Billing provisions are provided in
        Section 7.2 and attachment C of the contract. This contract only provided for the billing
        of assessments at a fixed price per assessment. Program administration costs were not
        specified. These costs are, therefore, not reimbursable, and are unallowable (see
        Schedule 3, Note 4 on page 28).

        Title 40 CFR 30.47 requires the Foundation to maintain a system that ensures a
        contractor complies with the terms, conditions, and specifications of its contracts. The
        payments in excess of the contract ceilings indicated that the Foundation did not perform
        its contract administrative functions in accordance with Title 40 CFR 30.47.


3
 In total, Validus exceeded the contract ceilings by $1,429,507 under Grant X82835301, and $50,362 under Grant
X783142301. However, in Schedule 3, Notes 1 through 5, our questioned costs exceeded the costs in excess of the
contract ceilings. Therefore, we did not question any additional costs over and above the $412,523 amount.



                                                       14

Foundation’s Response/OIG’s Comments

The Foundation did not respond to this finding but see Schedule 3, Notes 4 and 5 for
Validus’ comments and the OIG’s response.




                                       15

                                Recommendations

We recommend that the Director for the Grants Administration Division:

     1.	   Disallow the Federal share claimed of $25,372,590, and recover payments made of
           $25,173,266, unless the Foundation reconstructs its accounting records to meet the
           financial management standards required by Title 40 CFR 30.21 through 30.28,
           including:
           a.	 Correcting the distribution of labor costs and excluding all duplicate transactions.
           b.	 Providing explanations and support for all general journal entries and ensuring
               that all transactions are supported by adequate source documentation.
           c.	 Preparing and submitting indirect cost rate proposals for fiscal years 2000 through
               2003 in accordance with OMB Circular A-122.
           d.	 Resubmitting indirect cost rate proposals for fiscal years 1999 and fiscal years
               2004 through 2006 based on reconstructed accounting records.
           e.	 Assuring that unallowable preaward costs are excluded from grant claims.
           f.	 Revising recorded EPA cash draws to accurately identify the source of the funds
               and the amount.
           g.	 Submitting a final financial status report for grant X783142301and revised final
               financial status reports for grants X82835301 and X82672301 that have been
               reconciled to amounts recorded in the Foundation’s reconstructed accounting
               records.
     2.	   Rescind provisional indirect rates for fiscal years ended June 30, 2005, and June 30,
           2006.
     3.	   Require the Foundation to obtain single audits for fiscal years ended June 30, 2003,
           June 30, 2004, and June 30, 2005.
     4.	   Require the Foundation to prepare and submit overdue Standard Form 272 Federal
           Cash Transactions Reports.
     5.	   Disallow contract costs procured, claimed, and administered in violation of the
           requirements in Title 40 CFR Part 30.
     6.	   Disallow contract costs that were not authorized under the contract terms, including
           costs in excess of contract ceilings.
     7.	   Stop work on all active grants.
     8.	   Not award any new grants until the Foundation meets minimum financial 

           management requirements and repays all disallowed costs. 



                                                16

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                        Subject                          Status4          Action Official              Date      Amount      Amount

     1       16    Disallow the Federal share claimed of                   O           EPA Director for the            TBD        $25,372
                   $25,372,590 and recover payments made of                        Grants Administration Division
                   $25,173,266 unless the Foundation reconstructs
                   its accounting records to meet the financial
                   management standards required by Title 40
                   CFR 30.21 through 30.28.

     2       16    Rescind provisional indirect rates for fiscal years     O           EPA Director for the            TBD
                   ended June 30, 2005, and June 30, 2006.                         Grants Administration Division

     3       16    Require the Foundation to obtain single audits          O           EPA Director for the            TBD
                   for fiscal years ended June 30, 2003, June 30,                  Grants Administration Division
                   2004, and June 30, 2005.

     4       16    Require the Foundation to prepare and submit            O           EPA Director for the            TBD
                   overdue Standard Form 272 Federal Cash                          Grants Administration Division
                   Transactions Reports.

     5       16    Disallow contract costs procured, claimed and           O           EPA Director for the            TBD
                   administered in violation of the requirements in                Grants Administration Division
                   Title 40 CFR Part 30.

     6       16    Disallow contract costs that were not authorized        O           EPA Director for the            TBD
                   under the contract terms, including costs in                    Grants Administration Division
                   excess of contract ceilings.

     7       16    Stop work on all active grants.                         O           EPA Director for the            TBD
                                                                                   Grants Administration Division

     8       16    Not award any new grants until the Foundation           O           EPA Director for the            TBD
                   meets minimum financial management                              Grants Administration Division
                   requirements and repays all disallowed costs.




4
    O = recommendation is open with agreed-to corrective actions pending 

    C = recommendation is closed with all agreed-to actions completed 

    U = recommendation is undecided with resolution efforts in progress 





                                                                                   17

                                                                                                          Schedule 1

                    Schedule of Claimed Outlays by Assistance Agreement, 

                         Unallowable Costs, and Amounts Due EPA 

                             America’s Clean Water Foundation

                                                                       Grant
Description                                 X82835301                X783142301           X82672301                   Total
Personnel                                       $631,573                  $255,730            $526,670              $ 1,413,973
Fringe Benefits                                  160,048                   193,776               99,061                 452,885
Travel                                           204,882                    54,527              146,804                 406,213
Equipment                                          3,411                     1,995                8,737                  14,143
Printing                                             525                     7,458               13,209                  21,192
Meetings and Training                                  0                    13,443                5,783                  19,226
Supplies                                               0                     1,468                1,146                   2,614
Postage                                                0                     1,023                  218                   1,241
Telecommunications                                     0                     1,665               13,555                  15,220
Legal                                                  0                         0                2,527                   2,527
Publications and Subscriptions                         0                       207                  492                     699
Other                                             76,870                         0                    0                  76,870
Contracts                                     12,794,735                 8,961,897              385,497             22,142,129
Indirect                                         723,260                   343,143              373,544               1,439,947
Total Cost (Note 1)                          $14,595,304                $9,836,332           $1,577,243            $26,008,879
Less Unpaid Amounts (Note 2)                           0                  (845,034)                   0               (845,034)
Total Incurred and Paid                      $14,595,304                $8,991,298           $1,577,243            $25,163,845
Reported Outlays (Note 3)                    $14,438,750                $9,424,479           $1,534,361            $25,397,590
Recipient Share of Reported
   Outlays                                             0                         0                25,000                25,000
EPA Share of Reported Outlays                $14,438,750                $9,424,479            $1,509,361           $25,372,590
Unreconciled Difference between
   Total Incurred Cost and
   Reported Outlays                            $156,554                 $(433,181)              $ 42,882            $(233,745)
Total Cost Questioned                        $14,438,750                $9,424,479            $1,509,361           $25,372,590
EPA Payments                                 $14,438,750                $9,225,155            $1,509,361           $25,173,266
Amount Due EPA                               $14,438,750                $9,225,155            $1,509,361           $25,173,266
  Source: The schedule of claimed outlays came from the Foundation’s February 21, 2006, email to EPA’s Grant Administration
  Division. The unallowable outlays, unreconciled difference, and amount due EPA were based on the OIG analysis of the claimed
  outlays. The EPA payments came from EPA’s Financial Data Warehouse.

        Notes:
        1.	 Except for contracts, the Foundation reported incurred costs from its accounting system. The
            Foundation summarized amounts for contracts manually from invoices, cash draws, and
            contracts.
        2.	 Unpaid amounts are for invoices submitted by Validus Services, LLC, a Foundation 

            contractor. 

        3.	 The Foundation submitted a final Standard Form 269A Financial Status Report for grant
            X82835301 and X82672301 on September 28, 2004. It submitted a Standard Form 272
            Federal Cash Transactions Report for grant X783142301 on September 22, 2005. Grant
            X783142301 is ongoing and a Final Financial Status report has not been submitted.




                                                               18

                                                                                                 Schedule 2

             Comparison of Claimed Outlays to Recorded Costs 

                          Validus Services, LLC 

The purpose of this schedule is to compare the costs recorded in Validus’ accounting system
with the outlays that the Foundation claimed for Validus’ contractual services. In total, the
claimed contractual services exceeded the recorded costs by $6,195,057.

                                                                                Excess of
                                                     Claimed         Recorded Claimed over
      Cost Category                                  Outlays          Costs   Recorded Costs
      Grant X82835301
      Assessments                                     $ 7,760,183    $ 5,117,550           $ 2,642,633
      Program Administration and Refinement
              License Fee                                575,000              0                575,000
              Facilities/Admin. Allocation               215,495        206,523                  8,972
              Labor                                    1,003,848        785,216                218,632
              Misc. Admin                                 20,151         18,650                  1,501
              Program Refinement                          94,737         94,772                   (35)
              Other                                        1,156              0                  1,156
                                                       1,910,387      1,105,161                805,226
      Program Marketing or Promotion                     387,784        380,890                  6,894
      Program Training                                   598,229        596,423                  1,806
      Database Mining                                    201,432        201,432                      0
      Verification or Oversight                        1,450,130      1,439,881                 10,249
               Total                                $ 12,308,145    $ 8,841,337            $ 3,466,808
      Grant X783142301
      Assessments                                     $ 5,776,350    $ 3,666,240           $ 2,110,110
      Program Administration and Refinement
                License Fee                               675,000             0                675,000
                Facilities/Admin. Allocation              599,481     1,074,802              (475,321)
                Labor                                   1,041,616       267,358                774,258
                Misc. Admin                                29,691        29,731                   (40)
                                                        2,345,788     1,371,891                973,897
      Program Marketing or Promotion                      214,947       225,038               (10,091)
      Program Training                                     66,307        66,943                  (636)
      Database Mining                                      52,791       120,272               (67,481)
      Verification or Oversight                           343,170       620,720              (277,550)
               Total                                  $ 8,799,353   $ 6,071,104            $ 2,728,249

              Grand Total                           $ 21,107,498    $14,912,441            $ 6,195,057


     Source: The schedule of claimed outlays came from the Foundation’s February 21, 2006, email to
     EPA’s Grant Administration Division. The recorded costs came from Validus’ books and records. The
     excess of claimed over recorded costs is the difference between claimed outlays and recorded costs.




                                                      19
Validus’ Response

According to Validus, the amounts identified as “Billed to the Foundation”5 are not accurate.
Validus stated that the billed amounts for Grant X82835301 and Grant X783142301 were
$12,474,067 and $8,534,266, respectively. Because the billed amounts identified in Schedule 2
differ from the actual billed amounts, Validus was required to adjust the months associated with
each contract in order to be able to reconcile its billed amounts with the EPA auditor’s billed
amount (see Tab 22 of Validus’ response for the reconciliation spreadsheet).

Schedule 2 also purports to identify the amounts by which the Council and Validus “overbilled”
the Foundation under the two assistance agreements. Both the Council and Validus complied
with the terms of the contracts and to the extent that the billed amount was in excess of the
recorded incurred costs, the Council and Validus did so in full compliance with the terms of the
contracts, and with full knowledge of an acceptance by the Foundation and EPA.

OIG’s Comments

Schedule 2 identifies the outlays that the Foundation claimed for Validus’ contractual services in
comparison to the costs recorded in Validus’ accounting system. The excess of claimed outlays
over recorded costs merely represent the difference between what the Foundation claimed and
costs Validus recorded, and does not represent amounts by which Validus “overbilled” the
Foundation.

In response to the draft report, Validus provided us with a revised summary of the claimed
outlays and recorded costs for program administration and refinement (see Tab 22 of Validus’
response) under Grant X82835301. We have changed both Schedules 2 and 3 to reflect Validus’
revisions.




5
    The term “Billed to the Foundation” was changed in the final report to claimed outlays.


                                                           20

                                                                                                     Schedule 3

                     Results of Examination for Claimed Outlays
                                Validus Services, LLC


 Cost Category                                            Claimed            Unallowable              Notes
 Grant X82835301
 Assessments                                                 $ 7,760,183               $ 0
 Program Administration and Refinement
         License Fees                                           575,000            575,000               1
         Facilities and Administration Allocation               215,495            215,495               2
         Labor                                                1,003,848          1,003,848               3
         Miscellaneous Administration                            20,151                  0
          Program Refinement                                     94,737             17,074               4
          Other                                                   1,156                  0
                                                             $ 1,910,387       $ 1,811,417
 Program Marketing or Promotion                                  387,784            17,902               5
 Program Training                                                598,229           157,299               5
 Database Mining                                                 201,432             7,207               5
 Verification or Oversight                                    1,450,130           230,115                5
        Total Grant X82835301                             $ 12,308,145         $ 2,223,940
 Grant X783142301
 Assessments                                                 $ 5,776,350               $0
 Program Administration and Refinement
         License Fees                                           675,000          $ 675,000               1
         Facilities and Administration Allocation               599,481            599,481               2
         Labor                                                1,041,616            780,194               3
          Miscellaneous Administration                           29,691                  0
                                                             $ 2,345,788       $ 2,054,675
 Program Marketing or Promotion                                  214,947                 0
 Program Training                                                 66,307                 0
 Database Mining                                                  52,791                 0
 Verification or Oversight                                       343,170                 0
         Total Grant X783142301                              $ 8,799,353       $ 2,054,675
 Grand Total                                              $ 21,107,498         $ 4,278,615
      Source: The claimed outlays came from the Foundation’s February 21, 2006, email to EPA’s
      Grant Administration Division. The unallowable costs were based on the OIG’s analysis of the
      claimed outlays.

Our fieldwork at Validus’ offices indicated that the claimed outlays of $21,107,498 included
unallowable costs of $4,278,615. In addition, we noted that $845,034 of the claimed outlays
remain unpaid. In total, we questioned the $21,107,498 ($12,308,145 under grant X82835301,
and $8,799,353 under grant X783142301) claimed because the Foundation was unable to
demonstrate that the contract costs were reasonable, allowable, and allocable as discussed on
page 12 of the report under Procurement System Did Not Comply with Standards.


                                                       21

Background

Six contracts were awarded in fiscal years 1999 through 2005 to conduct on-farm assessments
under the OFAER program. An on-farm assessment is a voluntary independent review of a
livestock producer that provides an assessment of water quality, odor, and pest risk factors.
According to Validus, the National Pork Producers Council and Validus conducted 5,419 initial
assessments, 569 followup assessments, and trained 570 assessors to perform the assessments.
Assessments were performed at multiple types and sizes of livestock operations, including pork,
poultry, turkey, cattle, dairy, cow/calf, sheep, duck, and horse, and at small, medium, and large
operations in 45 states.

The contract numbers and their performance periods are:

    Grant X82835301
    ACWF-OFAER-02-996                       May 1, 1999, to June 30, 2001 (i)
    ACWF-OFAER-02-99-R16                    October 1, 2000, to September 30, 2001 (ii)
    ACWF-OFAER-01-027                       July 1, 2001, to June 30, 2002
    ACWF-OFAER-01-037                       July 1, 2002, to June 30, 2003

    Grant X783142301
    ACWF-OFAER-01-047                       July 1, 2003, to August 30, 2004
    ACWF-OFAER-01-057                       September 1, 2004, to August 31, 2005
    (i)    Validus stated that performance under this contract ended on September 30, 2000.
    (ii)   Validus stated that performance under this contract ended on June 30, 2001.

The contracts state that the Foundation will reimburse the contractor for reasonable and
necessary costs incurred associated with the services required in the agreement. The contracts
provided that the assessments be billed at a fixed rate per assessment. The rate remains fixed for
the contract period but varies for each contract. For all other services, such as program training,
program administration, and program marketing or promotion, the Foundation is to be billed for
necessary and reasonable costs incurred up to the maximum aggregate amounts as specified in
the contracts.

We reviewed the billings to determine if the costs were reasonable, allowable, and allocable in
accordance with the applicable regulations8 and contract terms and conditions. We performed
our review at Validus’ offices in Des Moines, IA from May 8 to May 18, 2005.

We noted that $845,034 of the amounts that Validus billed to the Foundation from June to
September 2005 are unpaid. The unpaid invoices are:


6
  Awarded to the National Pork Producer’s Council - a nonprofit organization. 

7
  Awarded to Environmental Management Solutions/Validus, a wholly owned subsidiary of the National Pork 

Producers Council, and a limited liability company. 

8
  According to the provisions of Title 40 CFR 30.27, allowable costs incurred by commercial organizations are 

determined in accordance with the provisions of Federal Acquisition Regulations (FAR) at 48 CFR Part 31. The

allowable costs incurred by nonprofit organizations are determined in accordance with OMB Circular A-122.



                                                       22

                       Invoice               Invoice Date               Amount Billed
                         241              June 16, 2005                      $ 343,320
                         278              July 15, 2005                        241,748
                         282              August 12, 2005                      162,019
                         303              September 15, 2005                    97,947
                                                Total                        $ 845,034

              Source: The schedule of unpaid invoices came from the Foundation’s February 21,
              2006, email to EPA’s Grant Administration Division.

The unpaid invoices are included in the Foundation’s reported outlays. We have shown the
unpaid amount as a separate item in Schedule 1.

Our review disclosed that the contractors (both Validus and the National Pork Producers
Council) did not comply with contract terms and conditions and the applicable regulations when
billing the Foundation. As a result, $4,278,615 in unallowable costs was billed ($2,223,940
under grant X82835301, and $2,054,675 under grant X783142301). The results of our review
are detailed in Schedule 3 on page 21 and the following explanatory notes.

Note 1: 	     License fees of $575,000 for grant X82835301 and $675,000 for grant
              X783142301 represent billings for amounts that were not incurred. Validus billed
              the Foundation a flat rate of $25,000 per month for the use of an on-farm
              assessment checklist that the Council developed under a contract with the
              National Pork Board. The licensing agreement with the National Pork Board
              provided that the Council would not pay any royalties to the National Pork Board
              for Validus’ use of the checklist for the first 5 years of the license beginning with
              calendar year 2001. In years 6 to 15, the Council was to pay the National Pork
              Board a royalty equal to 5.875 percent of revenues Validus collected annually
              from the use of the checklist. The contracts we audited were performed within
              the 5-year period during which no royalties were paid. Our review of accounting
              records and discussion with Validus personnel indicated that Validus did not incur
              any costs for licensing fees.

              Contract provisions in Section 8.3 and Section C state that administrative
              functions necessary to support assessment activities including salary, office rent,
              postage, supplies, telephone, services, accounting, and license fees are to be billed
              at cost. Actual costs, as defined by Part 31.001 of FAR, means amounts
              determined on the basis of costs incurred. Since Validus did not incur any costs
              for licensing fees, they are not allowable for reimbursement.




                                                   23

            Validus’ Response

            Validus responded that the premise that somehow the license fee had to
            correspond with costs incurred is a mistaken one. There was never any question
            among parties to this transaction that the license fee was anything other than a fee.
            The license fee was never represented as a cost. The Foundation fully
            agreed to the payment of a license fee of $25,000 a month in exchange for
            the exclusive rights to the OFAER assessment tool. The assessment tool
            was developed with private funding from pork producers through the use
            of the National Pork Board check-off funds. The license fee was
            reasonable in amount and billed in accordance with the parties agreement
            and the express terms of the contract. The EPA program officer most
            knowledgeable about the OFAER contracts and program did not reject the
            license fee. It was simply included in the Program Administration
            category for billing purposes as a matter of convenience and convention.
            Thus, there is no basis for characterizing the license fee as either over
            billed or unallowable.

            OIG’s Comments

            The contract terms between Validus and the Foundation specifically stated that
            license fees were part of program administration which were to be billed based on
            actual costs. The contract(s) did not specifically mention the $25,000 amount,
            and no documentation was provided to demonstrate the basis for the $25,000 fee
            or how the $25,000 monthly amount was determined to be necessary and
            reasonable as required by FAR Part 31.

            As we stated in the finding, the licensing agreement for the OFAER assessment
            tool provided that the Council would not pay the National Pork Board for any
            royalties for the first five years of the licensing beginning in calendar year 2001.
            Thus, no royalties were due and payable to the National Pork Board until the year
            6. Since Validus did not incur any costs for the use of the OFAER checklist, the
            license fees are not allowed.

Note 2: 	   Facilities and Administration costs of $215,495 for grant X82835301 and
            $599,481 for grant X783142301 represent allocations of indirect costs to the
            contracts that are not supported by indirect cost rate proposals and negotiation
            agreements. As a nonprofit organization, the Council was required in accordance
            with OMB Circular A-122, Attachment A, Paragraph E(2) to submit new indirect
            cost rate proposals within 6 months after the close of each fiscal year. Similarly,
            as a commercial organization, Validus was also required by the FAR to submit
            indirect cost rates proposals. Specifically, FAR 31.103(b) requires a contracting
            officer (in this case, the Foundation) to use FAR 42.7 for negotiating billing and
            final indirect cost rates with commercial organizations. FAR 42.705-1 requires a
            contractor to submit to the contracting officer a final indirect cost rate proposal
            within 6 months following the end of each fiscal year. Neither the Council nor



                                             24

            Validus provided any documentation to demonstrate that indirect rates were
            submitted and negotiated.

            We noted during our review that the contractor(s) recorded more indirect costs
            than it billed to the Foundation. Recorded indirect costs amounted to $1,074,802
            for grant X783142301, which was $475,321 ($1,074,802 - $599,481) more than
            what was billed. We discussed these differences with Validus personnel. They
            stated that the billed amount is based on their budgeted amounts. Incurred costs
            were greater than the budget but the President and Chief Executive Officer chose
            not to bill the Foundation for the additional costs because the variance from
            estimated was too great.

            Validus’ Response

            Validus does not agree that OMB and FAR regulations apply to the contracts
            under audit. None of the contracts with the Foundation incorporated OMB
            Circular A-122 or FAR Part 31, and none of the contracts otherwise required the
            submissions of indirect cost rate proposals or to negotiate indirect cost rates. As a
            result, the costs should not be disallowed.

            OIG’s Comments

            We disagree. Both Title 40 CFR 30.27 and OMB Circular A-122 provide that
            allowable costs are determined in accordance with the regulations applicable to
            the entity incurring the costs. Thus, for nonprofit contractors, allowable costs are
            determined in accordance with OMB Circular A-122. For commercial
            contractors, allowable costs are determined in accordance with the provisions of
            FAR Part 31. Under both OMB Circular A-122 and FAR Part 31, the
            organizations were required to submit indirect cost rate proposals within 6 months
            after the close of each fiscal year. Neither organization provided indirect cost rate
            proposals or negotiation agreements. Consequently, there is no basis for
            determining the reasonableness and allowability of the facilities and
            administration costs of $215,495 for grant X82835301 and $599,481 for grant
            X783142301.

Note 3: 	   The labor costs of $1,003,848 for grant X82835301 and $780,194 for grant
            X783142301 are unallowable because neither the Council nor Validus maintained
            supporting records required by OMB Circular A-122 and FAR. The unallowable
            costs are summarized as follows:

                                                                   Reported Outlays
             Contractor                                          X82835301    X783142301     Note
             National Pork Producers Council                      $198,211              $0    a
             Validus                                              $805,637        $780,194    b

             Total                                               $1,003,848      $780,194
            Source: OIG’s analysis of the contractor’s claimed labor.




                                                   25
a. 	   The Council billed $198,211 in labor costs to the Foundation but was
       unable to provide any personnel activity reports to support the labor
       charges. OMB Circular A-122, Attachment A, Paragraph (7) (m) requires
       nonprofit contractors to maintain personnel activity reports to support the
       charges for salaries and wages to awards. Since the Council was unable to
       furnish the requested personnel activity reports, the labor costs of
       $198,211 are unallowable.

       Validus’ Response

       Validus stated that the Council used a computerized time distribution
       system that its employees, including those who worked on the OFAER
       contracts, used to record their daily time. The system converted the
       employee time entries into labor charges that were recorded in the general
       ledger. General ledger account numbers corresponded to the projects
       employees used to charge their time. Validus reviewed documents that the
       Council submitted and determined that the Council incurred $198,211 for
       labor and billed the Foundation for the same amount. Since the Council’s
       billed labor amounts were based on recorded costs and the Council
       maintained a time distribution system, the costs are allowable.

       OIG’s Comments

       We requested copies of the daily time records to determine if the Council
       had a time keeping system that complied with the requirements of OMB
       Circular A-122. In response, Validus stated that the Council no longer had
       the time records we requested. The contractor said the document retention
       period in the Council’s contracts expired several years ago.

       Title 40 CFR 30.53 requires supporting documents to be retained for a
       period of three years from the date of the final expenditure report. The
       final financial status report for grant X82835301 was dated September 28,
       2004. The retention period will expire three years later or on September
       28, 2007. As a result, the labor costs remain unallowable.

b. 	   Labor costs of $805,637 and $780,194 that Validus billed the Foundation
       under grants X82835301 and X783142301, respectively are unallowable.
       The costs are unallowable because Validus did not have a time distribution
       system to identify, accumulate, and report labor costs for contracts and
       was unable to provide employee timesheets to support labor costs charged
       to the contracts. Validus personnel stated that predetermined percentages
       of employees’ time were used to charge the contracts for labor. The
       percentages were determined in discussions with the Foundation and were
       not formally documented.




                                26

FAR 31.201-2(d) states that a contractor is responsible for accounting for
costs appropriately and for maintaining records adequate to document that
costs claimed have been incurred and are allocable to the contract. Since
Validus did not maintain documentation required to determine the
allocability of labor charges we have questioned the amounts billed.

Under grant X783142301, we noted that Validus began using a time
distribution system, including employee timesheets, in January 2004 and
that it recorded $261,422 in labor costs in its accounting system that was
based on timesheets. However, Validus billed the Foundation $747,334 in
labor costs, which is $485,912 in excess of the amount supported by
timesheets. The excess billing resulted from Validus’ continued use of
predetermined percentages of employees’ time to charge labor to the
Foundation.

In total, the unallowable labor for grant X783142301 was $780,194 which
is the difference between the billed amount of $1,041,616 and the
$261,422 that was supported by timesheets.

Validus’ Response

Validus did not utilize a time keeping system when it was formed in 2001
because it had only one billable project (the OFAER contract) and there
was no need for such a system. In addition to working on the OFAER
contract, three Validus employees spent a small fraction of their time on
work for the National Pork Board. In 2003, Validus began other projects
to which its employees charged time. Labor billed to the OFAER
contracts in 2003 was based on predetermined percentages of an
employee’s monthly labor costs. The percentages were based on actual
charges to the OFAER contracts in previous years plus any changes that
were expected to occur. The same allocation method was followed for
each of the Validus OFAER contracts.

Validus provided a number of declarations from its employees to show
what percentage of time the employees recollected that they worked on the
OFAER contracts. Based on the employee’s declarations, Validus
determined that it had overbilled the Foundation by $283,779 for all four
of its contracts, and that this overbilled amount should be offset by the
$845,034 in billings that the Foundation has not paid, plus any unbilled
labor costs related to business development and independent research and
development labor.

OIG’s Comments

We have not changed our opinion on the allowability of labor costs of
$805,637 for grant X82835301 and $780,194 for grant X783142301.



                         27

                   Validus was unable to provide adequate time records to support labor
                   costs charged to the contracts. Without contemporaneous time records, we
                   were unable to determine if the labor costs were incurred and properly
                   allocated to the contract(s), and complied with all the applicable costs
                   principles as required by FAR 31.201-2(d). Consequently, we do not
                   consider employees’ recollections of what percentage of time they worked
                   on the OFAER contracts as an acceptable alternative to contemporaneous
                   time records.

Note 4: 	   We noted that Validus billed the Foundation for $17,074 in unbillable program
            refinement costs under contract ACWF-OFAER-02-99. Billing provisions are
            provided in Section 7.2 and Attachment C of the contract. This contract only
            provided for the billing of assessments at a fixed price per assessment. Program
            refinement costs were not specified. These costs are, therefore, not allowable for
            reimbursement.

            Validus’ Response

            Validus agreed that contract terms between the Foundation and the Council did
            not provide for program refinement. It stated that the Foundation and the Council
            agreed to begin program refinement work before the start of the next contract.
            Although the parties did not officially execute a modification or addendum to the
            contract, the parties understood that program refinement activities would be
            performed and paid by the Foundation. Validus also stated that if program
            refinement costs were not directly chargeable to the contract, the costs would
            have been billable as an indirect cost. Thus, the costs were in conformance with
            the parties’ understanding and agreement and cannot be disallowed.

            OIG’s Comments

            The contract terms did not provide for program refinement. The costs are outside
            the scope of the contract and are, therefore, unallowable. The contracted fixed
            rates for assessments included costs for salaries, training, certification,
            verification, and building overhead. We have no assurance that the program
            refinement costs are not included in the fixed rates.

            Program refinement costs are not subject to treatment as an indirect cost. FAR
            31.203(a) states that an indirect cost is any cost that is not directly identifiable
            with a single, final cost objective. Since program refinement costs have been
            identified to the OFAER contracts, they are not allowable as indirect costs.

Note 5: 	   The Foundation claimed unallowable outlays of $412,523 that were in excess of
            the maximum amount allowed under two contracts. The unallowable outlays are
            summarized as follows:




                                              28

                                Program
                              Marketing or Program Databas Verification   Total
                               Promotion Training e Mining or Oversight Questioned
Grant X82835301
ACWF-OFAER-01-02
    Maximum Amount                 $ 160,000 $ 80,000 $ 50,000           $ 400,000

    Billed                           147,406     218,311   57,207         630,115
    Amount Billed in Excess
    of Maximum                               0   138,311    7,207         230,115
ACWF-OFAER-01-03
    Maximum Amount                   160,000      85,000   55,000         555,000

    Billed                           177,902     103,988   10,476         384,855
    Amount Billed in Excess
    of Maximum                        17,902      18,988        0               0
Total Amount Billed in
Excess of Maximum                     17,902     157,299    7,207         230,115    $412,523

Source: OIG’s analysis of the recipient’s claimed contractual outlays.

Validus’ Response

Validus responded that the budgets were not meant to be firm ceilings that would
prohibit Validus from receiving payment for its incurred costs that exceed the
budget thresholds. Instead, the budget thresholds were set based on projected
performance requirements during the course of a particular contract, and were
adjusted as necessary when the performance requirements shifted and Validus
incurred costs greater than expected under one or several cost categories in the
contract. Whenever Validus realized its costs would exceed a budget threshold
for a particular cost category, it notified the Foundation and gained the
Foundation’s acknowledgement that it would be acceptable to exceed the budget
threshold. Thus, costs in excess of the budget threshold were not indicative of
Validus’ or the Foundation’s failure to comply with the terms and conditions of
the contracts.

OIG’s Comments

We disagree. Title 40 CFR 30.47 provides that the recipient is required to
maintain a system for contract administration to ensure contractor conformance
with the terms, conditions, and specification of the contract and to ensure
adequate and timely follow up of all purchases. Also, the agreements between
Validus and the Foundation provided that no modification of the agreements or
waiver of the terms and conditions will be binding upon either party unless in
writing and signed by both parties. Neither the Foundation nor Validus provided
any contract amendments that authorized Validus to exceed each cost category
ceiling.




                                       29

                                                                                   Appendix A

                           Scope and Methodology

We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Project Management Handbook, dated
January 14, 2005. We conducted this examination to express an opinion on the incurred costs,
and determine whether the recipient complied with all applicable laws and regulations, as well as
any special requirements under the agreement. We conducted our field work from November 15,
2005, through May 18, 2006. Our audit was conducted at the Foundation’s office in Washington
D.C., and Validus’s office in Urbandale, Iowa. Our audit covered the periods June 1, 1998
through June 30, 2005.

In conducting our examination, we performed the following procedures:

   •	 We reviewed grant and project files to obtain background information on the Foundation
      and the agreement.

   •	 We interviewed recipient personnel to understand the accounting system and the 

      applicable internal controls as they relate to the reported outlays. 


   •	 We reviewed the most recent single audit reports to identify issues which may impact our
      examination.

   •	 We reviewed costs incurred by a Foundation contractor, Validus Services, LLC.

We examined the incurred costs on a test basis to determine whether the costs were adequately
supported and eligible for reimbursement under the terms and conditions of the agreements and
Federal regulations and cost principles. The Foundation’s internal controls were found to be
weak and financial records were unreliable. We did not rely on internal controls and based our
review on transactions testing only.

On September 29, 2006, we issued the draft report to the Foundation’s attorney for comments.
On December 7, 2006, we received a response from the Foundation’s attorney which also
included comments from Validus. The Foundation and Validus either disagreed or did not
respond to the reports findings. We did not receive the response, as requested, in an acceptable
electronic format to include in the report. A copy is available on request. We have summarized
the Foundation’s pertinent comments after each finding in the report.




                                               30

Prior Audit Coverage

We issued two previous memos to the Office of Grants and Debarment on these grants. The first
memo was dated December 15, 2005 (Memo No. 2006-00003), and provided EPA with our
preliminary observations on potential accounting issues, control weaknesses and regulatory non
compliance that we identified at the Foundation. The second memo was dated June 15, 2006
(Memo No. 2006-M-00011), and provided EPA with additional information in resolving the
Foundation’s request to deviate from the applicable grant regulations related to procuring
Validus’ contracts under two grants. Our initial field work at Validus indicated that fair and
reasonable contract prices were not obtained.




                                              31

                                                                            Appendix B

                                       Distribution

Office of the Administrator
Director, Grants Administration Division (Action Official)
Director, Office of Grants and Debarment
Audit Followup Coordinator, Office of Grants and Debarment
Assistant Administrator for Water
Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                             32

